HHS/OIG, Audit -"Nationwide Review of Compliance With the Interrupted Stay Provision
of the Inpatient Rehabilitation Facility Prospective Payment System for Calendar Years 2002
and 2003,"(A-01-04-00525)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Nationwide Review of Compliance With the
Interrupted Stay Provision of the Inpatient Rehabilitation Facility Prospective Payment System
for Calendar Years 2002 and 2003," (A-01-04-00525)
December 19, 2005
Complete
Text of Report is available in PDF format (605 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether inpatient rehabilitation facilities
(IRFs) billed claims in compliance with Medicare prospective payment system regulations for
interrupted stays.  Through a nationwide computer match designed to identify interrupted
stays billed as multiple claims, we found that IRFs did not always bill claims in compliance
with Medicare prospective payment system regulations for interrupted stays.  Specifically,
during calendar years 2002 and 2003, Medicare made net overpayments of $5.9 million to 589
IRFs for interrupted stays billed as 2 or more claims.  We recommended that the Centers
for Medicare & Medicaid Services (CMS):  (1) direct its fiscal intermediaries to
recover the $5.9 million in net overpayments identified in our review, (2) use the results
of this review to clarify guidance to IRFs regarding the correct billing of interrupted stays,
(3) strengthen the edit in its Common Working File to detect all interrupted stays incorrectly
billed as two or more claims and prevent associated payments, and (4) instruct its fiscal
intermediaries to conduct matches similar to the one that we conducted to identify additional
payment errors for claims after December 31, 2003.  CMS agreed with our recommendations
to recover the overpayments and clarify guidance to the IRFs.  Additionally, CMS stated
that it had implemented the recommended edit in its Common Working File as of April 1, 2005.  CMS
did not agree with our recommendation to instruct its fiscal intermediaries to conduct matches
similar to the one that we conducted for payment errors that occurred before the edit was
implemented.